                                  INSPECTION




BUREAU OF LAND MANAGEMENT
ACTIVITIES RELATED TO SECRETARIAL
ORDER 3310—WILD LANDS





Report No.: ZZ-SP-BLM-0001-2011    February 2012
                OFFICE OF 

                INSPECTOR GENERAL 

                U.S.DEPARTMENT OF THE INTERIOR

                                                                                             FEB 0 2 2012
Memorandum

To: 	            Don Simpson
                 Wyoming State Director, Bureau of Land Management

From:        ;1-of Kimberly Elmore    ~t~- ..... A/};.f'C;n}J(/vL
              " Assistant Inspector General for Audits, Inspections, and Evaluations

Subject: 	       Inspection- Bureau of Land Management Activities Related to Secretarial
                 Order 3310 - Wild Lands
                 Report No. ZZ-SP-BLM-0001-2011

        This memorandum transmits the results of our inspection of the U.S. Department of the
Interior Bureau of Land Management (BLM) Secretarial Order 3310, "Protecting Wilderness
Characteristics on Lands Managed by the Bureau of Land Management."

Background

        In December 2010, the Secretary ofthe Interior signed Secretarial Order 3310,
"Protecting Wilderness Characteristics on Lands Managed by the Bureau of Land Management"
(Secretarial Order). This Secretarial Order affirmed that protecting the wilderness characteristics
of public lands was a high priority for BLM and was an integral component of its multiple-use
mission. The Secretarial Order directed BLM, based on input from local communities through
existing land management planning processes, to designate appropriate areas with wilderness
characteristics under BLM jurisdiction as "wild lands" and to manage and protect those
characteristics. Since the "wild land" designation is administrative, it can be made and then later
modified through BLM' s internal processes. A "wild land" differs from both ­

    • 	 a "wilderness area," which is designated by Congress and cannot be modified except by
        legislation; and
    • 	 a "wilderness study area," which is an area recommended before Congress for
        determination of whether it should be permanently protected as a "wilderness area" and
        that BLM must manage to protect its wilderness characteristics until Congress makes its
        determination.

        On April 15, 2011 , Public Law 112-1 0 was enacted, entitled "Department of Defense and
Full-Year Continuing Appropriations Act, 2011 " (Act). Section 1769 of the Act states "For the
fiscal year ending September 30, 2011 , none of the funds made available by this division or any
other Act may be used to implement, administer, or enforce Secretarial Order 3310 issued by the
Secretary of the Interior on December 22, 2010." Therefore, BLM was no longer allowed to
perform any work specifically related to the Secretarial Order.



                          Office of Audits, Inspections, and Evaluations I Washington , DC
Objective

        On April 27, 2011, the Westport News reported that BLM would wait to issue six oil and
gas drilling leases near the scenic Adobe Town badlands of southwest Wyoming while it studied
the area’s wilderness characteristics. The study was reported to be a direct result of the
Secretarial Order, suggesting that this may be in violation of the Act. Therefore, the Office of
Inspector General inspected activities being conducted related to the Secretarial Order to ensure
that BLM’s Wyoming State Office was in compliance with the Act.

Results

        Our inspection disclosed that the BLM Wyoming State Office was in compliance with
the Act. We determined that the Westport News article contained inaccurate information about
the cause of the delay in issuing the six oil and gas drilling leases. Instead, timing and poor
weather conditions caused the pre-lease wilderness evaluations to be delayed, which in turn
resulted in a delay in issuing the leases. 1 Specifically, poor weather conditions in Wyoming
postponed the study required under the Secretarial Order from February 2011 until the weather
improved enough for BLM staff to safely enter the area and perform their work.

        During the postponement, the Secretarial Order was defunded. As a result, BLM changed
from determining whether the lands should be designated as “wild lands” under the Secretarial
Order, to performing the traditional inventory of Lands with Wilderness Characteristics required
by the Federal Land Policy and Management Act of 1976 (FLPMA).

Scope and Methodology

       We performed our inspection in accordance with the “Quality Standards for Inspections”
adopted by the Council of Inspectors General on Integrity and Efficiency. We believe that the
work performed provides a reasonable basis for our conclusion.

      The inspection focused on BLM’s Wyoming State Office and its activities being
conducted related to Secretarial Order 3310. As part of our inspection, we —

    •    reviewed Secretarial Order 3310 and other applicable laws and regulations;
    •    reviewed BLM manuals relating to “wild lands”;
    •    reviewed the Federal Land Policy and Management Act of 1976;
    •    reviewed the Wilderness Act of 1964; and
    •    interviewed Wyoming State Office personnel.

       Our inspection did not identify any issues to suggest that BLM is not in compliance with
the Act. If you have any questions about this report, please contact me at 202-208-5512.




1
 The Westport News article referred to six oil and gas leases scheduled for issuance in February 2011, when the Secretarial
Order was still in effect.

                                                               2

                                      


              Report Fraud, Waste,                                        
              and Mismanagement
                                         
                    Fraud, waste, and mismanagement in
                    government concern    everyone: Office
                  of Inspector General staff, Departmental
                   employees, and the general public. We
                      actively solicit allegations of any
                             and wasteful practices, fraud,
                  inefficient
                       and mismanagement related to
                 
                   Departmental or Insular Area programs
                                                           
                       and operations.  You can report
                      allegations to us  in several ways.
                                          
                                      
                                      
     By Mail:	            U.S. Department of the Interior  
                          Office of Inspector General  
                          Mail Stop 4428 MIB  
                          1849 C Street, NW  
                          Washington, D.C. 20240  
      
     By Phone:   	        24-Hour Toll Free                   800-424-508  1
                          Washington Metro Area               202-208-5300
                                                                           
      
     By Fax:   	          703-487-5402
      
     By Internet:	        www.doioig.gov
  
                                                                                
